OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID ACTIVITIES
IN LIMITED-PRESENCE
COUNTRIES MANAGED BY
USAID/SOUTHERN AFRICA
AUDIT REPORT NO. 4-690-07-002-P
DECEMBER 18, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


December 18, 2006

MEMORANDUM

TO:                  USAID/Southern Africa, Regional Director Erna Kerst

FROM:                Acting Regional Inspector General/Pretoria, Matthew P. Rathgeber /s/

SUBJECT:             Audit of USAID Activities in Limited-Presence Countries Managed by
                     USAID/Southern Africa (Report No. 4-690-07-002-P)

This memorandum transmits our final report on the subject audit. In finalizing our report,
we considered your comments on our draft report and have included your response in its
entirety as Appendix II.

This report includes six recommendations that USAID/Southern Africa (1) establish
procedures to ensure that data quality assessments be completed for all indicators
published in annual reports, (2) establish procedures to ensure that all strategic objective
teams have completed and approved performance management plans, (3) revise one
indicator to better reflect the results of USAID activities, (4) establish procedures to
ensure the accuracy of performance results included in annual reports, (5) establish
procedures to ensure that activity information sheets for limited-presence countries are
completed, approved and input into the appropriate data base, and (6) prepare a plan to
obtain approval for and input overdue activity information sheets.

In your response to the draft report, you provided corrective action plans addressing the
six recommendations above. Therefore, we consider that management decisions have
been reached on these recommendations. Please provide the Office of Audit,
Performance, and Compliance Division (M/CFO/APC) with the necessary documentation
to achieve final action on these recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Has USAID/Southern Africa monitored and evaluated limited-presence country activities
in accordance with applicable policies and procedures? .................................................. 4

     Data Quality Assessments Were Not
     Always Completed ...................................................................................................... 4

     Performance Management Plans Were
     Not Always Completed ............................................................................................... 5

     One Performance Indicator Reported
     Results That Were Not Attributable to
     USAID Activities ......................................................................................................... 6

Has USAID/Southern Africa reported limited-presence country activities in accordance
with applicable policies and procedures?.......................................................................... 7

     Performance Results Were Not
     Always Reported Accurately ....................................................................................... 8

     Activity Information Sheets Were
     Not Input Into the Required Database......................................................................... 9

Have USAID/Southern Africa limited-presence countries activities achieved their
intended outputs?............................................................................................................ 11

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15

Appendix III – Output Achievements........................................................................... 19
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Southern Africa monitored, evaluated and reported activities in Botswana,
Lesotho, and Swaziland in accordance with applicable policies and procedures. An
additional objective was whether the activities in these countries achieved their intended
outputs. (See page 2.)

Generally, USAID/Southern Africa monitored and evaluated activities in Botswana,
Lesotho, and Swaziland in accordance with applicable policies and procedures. For its
strategic objective teams USAID/Southern Africa had: (1) established performance
indicators, (2) prepared performance management plans, (3) set performance baselines,
(4) designated cognizant technical officers for implementing partner agreements, (5)
collected performance data, and (6) assessed data quality. As part of the performance
management plans, USAID/Southern Africa assigned staff with required monitoring
duties that included regularly conducted site visits and other activities in conjunction with
its implementing partners. However, some required data quality assessments and a
performance management plan were not completed, and one performance indicator
reported results that were not attributable to USAID activities. (See page 3.)

Concerning the reporting of activities in Botswana, Lesotho, and Swaziland,
USAID/Southern Africa generally reported activities in accordance with applicable
policies and procedures. For regional activities that included Botswana, Lesotho, and
Swaziland, USAID/Southern Africa published performance results in its annual report,
which included performance indicators and results frameworks for the Mission’s regional
activities. However, activity information sheets that were required to identify the
activities in the limited-presence countries were not completed and input into the
required data base. Additionally, performance results were not always reported
accurately in the annual report in fiscal year 2006. (See page 7.)

Regarding the achievement of outputs, USAID/Southern Africa’s activities that affected
the three limited-presence countries of Botswana, Lesotho and Swaziland only partially
achieved their intended outputs. Three of the five performance indicators that we tested
in the fiscal year 2006 annual report met or exceeded their respective targets for fiscal
year 2005. Activities for the other two indicators did not achieve their intended outputs.
(See page 10.)

This report includes six recommendations to improve USAID/Southern Africa’s programs
for activities in Botswana, Lesotho, and Swaziland. Those recommendations are that
USAID/Southern Africa:        (1) establish procedures to ensure that data quality
assessments be completed for all indicators published in annual reports, (2) establish
procedures to ensure that all strategic objective teams have completed and approved
performance management plans, (3) revise one indicator to better reflect the results of
USAID activities, (4) establish procedures to ensure the accuracy of performance results
included in annual reports, (5) establish procedures to ensure that activity information
sheets for limited-presence countries are completed, approved and input into the
appropriate data base, and (6) prepare a plan to obtain approval for, and input, overdue
activity information sheets. (See pages 4 through 10.)




                                                                                           1
For the six recommendations set forth above, USAID/Southern Africa concurred with the
recommended action and has provided planned actions to address these
recommendations. Therefore, we consider that management decisions have been
reached on each of these six recommendations. See page 11 for our evaluation of
management comments.




                                                                                   2
BACKGROUND
USAID’s traditional management model is an in-country mission with resident U.S. direct
hire and foreign national employees, as well as personal service contractors, filling
program and administrative positions. However, USAID also funds new and continuing
activities through regional and pillar bureaus in countries where it does not maintain a
resident mission. These countries are referred to as limited-presence countries.

Activities managed under an in-country mission are normally part of an integrated
strategic plan, with the performance results reported through USAID’s annual report
process for the respective country. However, for activities in countries that have no
strategic plans and are not reported through the annual report process for the respective
country, which are sometimes referred to as ANMIC (Activities Not Managed In-
Country), USAID has established a database to capture data associated with these
activities. Activity managers must use activity information sheets to record activity
information in this database. The purpose of these procedures is to ensure that
information on all activities undertaken in a given country is readily available for
management and reporting purposes.

USAID’s Automated Directives System (ADS) 203 states that operating units are
responsible for establishing systems to measure activity progress towards intended
results. The tools of assessing, learning, and sharing are interrelated through the
concept of performance management. This is defined as the systematic process of
monitoring the results of activities; collecting and analyzing performance information to
track progress toward planned results; using performance information to influence
program decision making and resource allocation; and communicating results achieved,
or not attained, to advance organizational learning and tell USAID’s story.

During fiscal year 2005, USAID/Southern Africa, located in Gaborone, Botswana,
managed regional activities in 14 countries in southern Africa, among which were
included the three limited-presence countries of Botswana, Lesotho and Swaziland.
Since USAID/Southern Africa’s programs are strictly regional in nature, the Mission
could not identify funding specifically programmed for the three limited-presence
countries mentioned above. However, for the entire portfolio, the Mission reported total
program obligations of $17 million in fiscal year 2005 in four strategic objectives.

AUDIT OBJECTIVES
This audit was conducted as part of the Regional Inspector General/Pretoria’s annual
audit plan. The audit was designed to answer the following questions:

   •   Has USAID/Southern Africa monitored and evaluated limited-presence country
       activities in accordance with applicable policies and procedures?
   •   Has USAID/Southern Africa reported limited-presence country activities in
       accordance with applicable policies and procedures?
   •   Have USAID/Southern Africa limited-presence countries activities achieved their
       intended outputs?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                       3
AUDIT FINDINGS
Has USAID/Southern Africa monitored and evaluated limited-
presence country activities in accordance with applicable
policies and procedures?
Generally, USAID/Southern Africa monitored and evaluated activities in Botswana,
Lesotho, and Swaziland in accordance with applicable policies and procedures.
However, some data quality assessments and a performance management plan were
not completed, and a performance indicator reported results that were not attributable to
USAID activities.

Nevertheless, in monitoring the performance of its activities in the subject countries,
USAID/Southern Africa had generally established the basic controls for monitoring and
evaluating activities as required by applicable policies and procedures. For its strategic
objective teams, USAID/Southern Africa had: (1) established performance indicators,
(2) prepared performance management plans, (3) set performance baselines, (4)
designated cognizant technical officers for implementing partner agreements, (5)
collected performance data, and (6) assessed data quality. As part of its performance
management plans, USAID/Southern Africa assigned staff with required monitoring
duties that included regularly conducted site visits and other activities in conjunction with
its implementing partners.

However, there were certain areas in which the performance monitoring system could be
strengthened. Data quality assessments were not always done, a performance
management plan was not completed and approved, and one performance indicator
reported results that were not attributable to USAID activities. These areas are
discussed in detail below.

Data Quality Assessments
Were Not Always Completed

Summary: As a result of weak internal management controls, data quality assessments
were not always completed for performance indicators reported in USAID/Southern
Africa’s annual report for fiscal year 2006 as required by applicable policies and
procedures. Without data quality assessments, USAID/Southern Africa did not have
reasonable assurance that data quality met validity, timeliness, and reliability standards,
the lack of which could negatively affect management decisions.

The Automated Directives System (ADS) 203 states that operating units shall, at regular
intervals, critically assess the data they are using to monitor performance to insure they
are of reasonable quality and accurately reflect the process or phenomenon they are
being used to measure. Data quality will be assessed as part of the process of
establishing performance indicators and choosing data collection sources and methods.
The guidance goes on to say that reassessments will be done as necessary, but at
intervals of no greater than three years; and that whenever possible, reasonable
standards of statistical reliability and validity should be applied.



                                                                                           4
For Strategic Objective No. 14, entitled A More Competitive Southern African Economy,
no data quality assessments had been done for the three indicators reported in the fiscal
year 2006 annual report. This was the result of weak internal management controls—
the Mission did not require assessments to be completed prior to the publication of
annual reports. Controls should have been in place to enforce ADS requirements and
ensure that assessments were completed for performance indicators published in annual
reports in accordance with applicable policies and procedures.

A results-oriented management approach relies on field managers to use performance
information to make their decisions. Specifically, quality performance indicators and
data will help (1) ensure that USAID program and budget decisions are as well-informed
as practically possible, (2) support efficient use of USAID resources, (3) meet
requirements of Federal legislation, and (4) address the information needs of USAID’s
internal and external users, which include senior management, Office of Management
and Budget (OMB), and Congress. However, sound decisions require valid, current, and
reliable information, the benefits of which depend substantially on the quality of the
performance information available. Without data quality assessments, USAID/Southern
Africa did not have reasonable assurance that data quality met validity, timeliness, and
reliability standards, the lack of which could negatively affect decision making.
Additionally, a specifically identified effect could be the attribution problem of one of the
performance indicators discussed below.

Since USAID/Washington is currently revising its results framework, we are not making a
recommendation to complete the data quality assessments at this time. However, to
ensure that future data quality meets the required standards once the revised framework
is implemented, we are making the following recommendation:

   Recommendation No. 1: We recommend that USAID/Southern Africa establish
   procedures to complete data quality assessments for all indicators published in
   annual reports in accordance with applicable policies and procedures.

Performance Management Plans
Were Not Always Completed
Summary: The performance management plan for Strategic Objective No. 15 was never
completed and approved, contrary to USAID guidance. This occurred because of weak
internal management controls. Without a proper performance management plan,
USAID/Southern Africa was without a critical tool for planning, managing, and
documenting data collection. Additionally, the Mission did not have assurance that it
was maintaining the elements that are essential to the operation of a credible and useful
performance-based management system.

ADS 203 states that performance management plans shall be prepared for each
operating unit’s strategic plan.        Information included shall enable comparable
performance data to be collected over time, even in the event of staff turnover, and shall
clearly articulate expectations in terms of scheduling and responsibility. Specifically,
performance management plans shall provide a detailed definition of the performance
indicators that will be tracked; specify the source, method of collection and schedule of




                                                                                           5
collection for all required data; and assign responsibility for collection to a specific office,
team or individual.

TIPS No. 7, entitled, Preparing a Performance Monitoring Plan, states that a strategic
plan will have identified preliminary performance indicators, adding that the performance
management plan builds on this initial information. The definition of each indicator and
the unit of measure should be detailed enough to ensure that different people at different
times would collect identical types of data. The source for each indicator must also be
identified.

Comparable data must be gathered periodically to measure performance, with the
frequency of collection depending on the type of data. Performance management plans
can usefully provide the schedules and dates for data collection. The schedules should
consider management’s need for timely information for decision making. For each
performance indicator, the responsibility of the Mission for the timely collection of data
from their source should be clearly assigned to a particular office, team or individual.

A performance management plan for Strategic Objective No. 15, entitled Rural
Livelihoods Diversified in Southern Africa, which funded activities in Botswana, was
never completed or approved. This occurred because the Mission had weak internal
management controls that did not require completed performance management plans
from each of its strategic objective teams. For example, although the program office
was aware that the strategic objective team had not completed the plan, it did not require
that the plan be completed. Without a proper performance management plan,
USAID/Southern Africa has been without a critical tool for planning, managing, and
documenting data collection. The performance management plan contributes to the
effectiveness of the performance monitoring system by assuring that comparable data
will be collected on a regular and timely basis. Without a completed and approved plan,
the Mission did not have assurance that it was maintaining the elements that are
essential to the operation of a credible and useful performance-based management
system.

Since USAID/Washington is currently revising its results framework, we are not making a
recommendation to complete the performance management plan at this time. However,
in order to provide the assurances afforded by performance management plans once the
new framework is in place, we are making the following recommendation:

    Recommendation No. 2: We recommend that USAID/Southern Africa establish
    procedures to complete and approve performance management plans for all
    strategic objective teams.

One Performance Indicator Reported
Results Not Attributable to USAID Activities
Summary: One performance indicator was reporting results that were not attributable to
USAID activities, contrary to USAID guidance. This occurred because the initial data
quality assessment for the indicator was not completed. Consequently, some of the
reported results were not attributable to USAID activities, which could negatively affect
subsequent results-oriented management decisions.




                                                                                              6
According to ADS 203, performance indicators selected for inclusion in the performance
management plan should measure changes that are clearly and reasonably attributable
to USAID efforts. TIPS No. 12, entitled Guidelines for Indicator and Data Quality, states
that one of the critical requirements for an indicator is the degree to which the indicator
and the related data accurately reflect the process it is being used to measure. It
continues by stating that an indicator is valid if it closely tracks the result it is intended to
measure.

For the performance indicator Annual growth in value of exports from southern African
countries to the U.S., the definition of the indicator included exports that were not
covered under USAID-funded activities. The Mission was funding a “Trade Hub” under
the “Trade Expansion for Southern Africa” (TESA) program, which directly supported the
expansion of African Growth and Opportunity Act (AGOA) exports. However, the
indicator was reporting export amounts for “all exports,” which included exports that were
not supported under the TESA program. This resulted in exports not attributable to the
program being reported, thereby reducing the validity of the indicator. Since export
amounts are published for AGOA exports, reporting these exports instead of “all exports”
would more closely reflect the results of the USAID-funded TESA program. This issue
would easily have been recognized had a data quality assessment been done for this
performance indicator when required.

As stated previously, a results-oriented management approach relies on field managers
to use performance information to make their decisions.                  Specifically, quality
performance indicators and data will help (1) ensure that USAID program and budget
decisions are as well-informed as practically possible, (2) support efficient use of USAID
resources, (3) meet requirements of Federal legislation, and (4) address the information
needs of USAID’s internal and external users, which include senior management, Office
of Management and Budget (OMB), and Congress. However, sound decisions require
valid, current, and reliable information, the benefits of which depend substantially on the
quality of the performance information available. Without accurate data attributable to its
activities, USAID/Southern Africa did not have reasonable assurance that data quality
met validity, timeliness, and reliability standards, the lack of which could negatively affect
decision making.

In order to ensure that results attributable to the program are accurately reported in the
Mission’s results framework, we are making the following recommendation:

    Recommendation No. 3: We recommend that USAID/Southern Africa revise the
    definition for the performance indicator for “Annual growth in value of exports
    from Southern African countries to the U.S.” in order to report results attributable
    to USAID activities.


Has USAID/Southern Africa reported limited-presence country
activities in accordance with applicable policies and
procedures?
Generally, USAID/Southern Africa reported activities in Botswana, Lesotho, and
Swaziland in accordance with applicable policies and procedures. However, there were
several exceptions in data accuracy as well as the lack of activity information sheets.


                                                                                               7
Nevertheless, in reporting activities that were conducted in Botswana, Lesotho, and
Swaziland, USAID/Southern Africa published performance results in its annual report,
which included performance indicators and results frameworks for the Mission’s regional
activities.

However, performance results were not always reported accurately in the annual report
in fiscal year 2006. Additionally, these regional activities did not report country-specific
activities. Activity information sheets that were required for these limited-presence
country activities were not completed, approved and input into the required data base.
These issues are discussed in detail below.

Performance Results Were Not
Always Reported Accurately
Summary: Performance results were not always reported accurately, contrary to
applicable guidance. The principal cause for this was the lack of adequate editing
controls and record-keeping systems to ensure that data quality was maintained and
accurate results reported.      Consequently, USAID/Southern Africa did not have
reasonable assurance that activities were either achieving or not achieving intended
results, which could negatively affect decision making.

Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that all transactions and significant events need to be clearly
documented and that the documentation should be readily available. Additionally,
USAID’s Guidelines for Indicator and Data Quality, TIPS No. 12, which summarizes the
key references on performance measurement quality found in various parts of USAID’s
ADS, states that an indicator’s validity can be affected by measurement error, sampling
error, and transcription error. TIPS No. 12 further states that USAID’s results-oriented
management approach relies on managers to inform their decisions with performance
information. Sound decisions require accurate, current, and reliable information, and the
benefits of this results-oriented approach depend substantially on the quality of the
performance information available.

For the results reported for fiscal year 2005 in USAID/Southern Africa’s fiscal year 2006
annual report, three of the five performance indicators that we examined were not
accurately reported when compared to the supporting documentation from the
implementing partner.

   •   For the indicator Annual growth in value of exports from Southern African
       countries to the U.S., the actual amount supported by source documents was
       14.8 percent. The amount published in the annual report, however, was 30
       percent.

   •   For the indicator Key transaction costs reduced measured as hours at border to
       clear, the actual amount supported by source documents was zero, due to the
       fact that the implementing partner had not programmed this activity in its work
       plan for fiscal year 2005. The amount achieved published in the annual report
       indicator table, however, was 15 percent, the same amount as the initial target



                                                                                          8
       for that year, although the narrative portion of the report indicated that the target
       was not achieved.

   •   For the indicator Value of exports of targeted commodities from Southern Africa
       to world markets, the actual amount supported by source documents was $2.7
       million (in thousands of U.S. dollars) or $2.7 billion. However, the published
       amount was $3.5 million with the “thousands of U.S. dollars” designation
       dropped. It appears that the Mission meant this amount to be in thousands of
       U.S. dollars, or $3.5 billion, an inconsistency which was confusing to the reader.
       Another reporting issue was the lack of disclosure that these results were lagged
       one year and that they were actually fiscal year 2004 trade figures.

The principal cause of the above reporting problems was the lack of management
controls over editing the annual report and adequate record keeping systems. An
adequate record keeping system is necessary to ensure that reported results are
supported, and adequate editing procedures are necessary to ensure that the reported
results accurately reflect source documents. These controls are essential for ensuring
that reported performance results in annual reports are accurate and reliable as required
by applicable policies and procedures.

As stated previously, a results-oriented management approach relies on managers to
use performance information to make their decisions. Specifically, quality performance
indicators and data will help (1) ensure that USAID program and budget decisions are as
well-informed as practically possible, (2) support efficient use of USAID resources, (3)
meet requirements of Federal legislation, and (4) address the information needs of
USAID’s internal and external users, which include senior management, Office of
Management and Budget (OMB), and Congress. However, sound decisions require
valid, current, and reliable information, the benefits of which depend substantially on the
quality of the performance information available. Without accurately reported results,
USAID/Southern Africa did not have reasonable assurance that data quality met validity,
timeliness, and reliability standards, the lack of which could negatively affect decision
making.

To ensure that future performance results are accurately reported, we are making the
following recommendation:

   Recommendation No. 4: We recommend that USAID/Southern Africa establish
   procedures to review annual report data and report results for performance
   indicators that are supported and accurate in accordance with applicable policies
   and procedures.

Activity Information Sheets Were
Not Input Into the Required Database
Summary: Activity information sheets for the activities in three limited-presence
countries in the region were not input into the required database as required by USAID
guidance. USAID/Southern Africa had prepared draft activity information sheets;
however, they were never approved and entered into the database. This occurred
because the Mission had weak management controls to ensure that the sheets were
approved and ultimately input. As a result, necessary information on all activities


                                                                                          9
undertaken in the three limited-presence countries was not readily available for
management and reporting purposes.

ADS 203, entitled Reporting Requirements for Activities Not Managed by Country Based
USDH1 Staff: Activity Information Sheets (AIS), requires operating units to use AISs to
plan and report activities that are implemented in presence or non-presence2 countries
but are not part of the approved strategic plan for that country. It further states that the
sheets are to be prepared and submitted for input prior to the initiation of the activities,
and reviewed and updated annually or as new information becomes available.

Since USAID/Southern Africa is strictly a regionally-based operation, it did not have
country-specific strategic plans for the three limited-presence countries of Botswana,
Lesotho and Swaziland that were affected by its regionally funded activities. Therefore,
AISs should have been prepared and submitted for input for those activities prior to their
initiation. The Mission, however, never completed and input AISs for the subject
activities during the entire fiscal year 2005. Although it had prepared draft AISs for the
activities, it had never obtained required clearances for them, and never entered them
into the required database3.

This occurred because the Mission had weak management controls for ensuring that
AISs were completed, approved and input. Mission officials stated that part of the
problem was the lack of response on the part of USAID/Washington officials during the
approval process. Although this may have been the case in part, we noted that there
was little evidence of consistent follow-up by Mission officials to obtain the necessary
clearances for input.

Without reliable information on its activities in a given limited-presence country, USAID
was unable to provide information in a timely manner to decision makers who must
consider programming strategies and funding alternatives that ensure that all activities in
specific countries comprise and support a coherent strategy that is not otherwise
prohibited by legislation. Additionally, this information is necessary for responding to
Congressional information requests, input into U.S. Embassy performance plans, and
compliance with Federal requirements for performance reporting.

To ensure that activity information sheets are input into the required data base, we are
making the following recommendations:

    Recommendation No. 5: We recommend that USAID/Southern Africa establish
    procedures to complete, approve and input into the appropriate database all
    activity information sheets for limited-presence countries in accordance with
    applicable policies and procedures.

    Recommendation No. 6: We recommend that USAID/Southern Africa solicit
    approval for and input overdue activity information sheets.




1
  U.S. Direct Hire
2
  “Non-presence” was the previously used term for “limited-presence.”
3
  Activities Not Managed In-Country database (ANMIC)


                                                                                         10
Have USAID/Southern Africa limited-presence country activities
achieved their intended outputs?
For the five published indicators that we examined, USAID/Southern Africa’s activities
only partially achieved their intended outputs. As set forth in the table in Appendix III,
three of the five indicators that we examined met or exceeded their respective targets for
fiscal year 2005, while two indicators did not meet their targets. However, as explained
below, the two indicators that did not achieve their intended outputs were not particularly
useful in assessing the progress of limited-presence country activities during fiscal year
2005.

USAID/Southern Africa published five performance indicators to track the progress of its
limited-presence country activities. Of the five indicators that we examined, the following
three had met or exceed their intended targets.

      •   Value of exports or targeted commodities from Southern Africa to world markets
          [indicator included under Strategic Objective No. 14].

      •   Institutional development of OKACOM4 Secretariat (Institutional strengthening
          index; # of annual targets met) [indicator included under Strategic Objective No.
          17].

      •   Number of International River Basin Organizations Strengthened (cum.)
          [indicator included under Strategic Objective No. 17.]

The remaining two indicators had not achieved their targeted outputs. For the first of
these—activities to reduce key transaction costs at the border—USAID/Southern Africa
did not provide the funding needed to implement the indicator activities under the related
strategic objective (S.O. 14). As a result of this budget limitation; the implementing
partner did not budget for any activity related to this indicator in its fiscal year 2005 work
plan. Consequently, nothing was accomplished in regards to this indicator during fiscal
year 2005, although activity did commence in the subsequent fiscal year. In addition, as
previously discussed on page 9 of this report, the second of these indicators—annual
growth in value of exports from Southern Africa to U.S.-assisted region (S.O. 14)—
included exports that were not covered under USAID-funded activities and did not,
therefore, reflect USAID’s accomplishments. As a result, both of these indicators were
of little use in assessing the progress of USAID/Southern Africa’s limited-presence
country activities in fiscal year 2005.




4
    Okavango River Basin Water Commission


                                                                                           11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Southern Africa concurred with all six
recommendations. The Mission described the actions taken and those planned to be
taken to address our concerns. The Mission’s comments and our evaluation of those
comments are summarized below.

In response to Recommendation Nos. 1, 2, 4 and 5, concerning the establishment of
procedures for data quality assessment completion, performance management plan
completion and approval, annual report preparation, and activity information sheet
completion, USAID/Southern Africa concurred with the recommendations. The Mission
proposed establishing procedures through various mission orders for completing data
quality assessments, completing performance management plans, preparing annual
reports and completing activity information sheets. Based on this, we consider that a
management decision has been reached for these recommendations.

For Recommendation No. 3, regarding the revision of a performance indicator,
USAID/Southern Africa concurred with the recommendation. However, instead of
revising the indicator, the Mission proposed dropping it and replacing it with an indicator
from the new Foreign Assistance Standardized Program Structure. Consequently, we
consider that a management decision has been reached for this recommendation.

With respect to Recommendation No. 6, concerning the input of overdue activity
information sheets, USAID/Southern Africa concurred with the recommendation and
provided a plan with target dates for soliciting approval for and inputting overdue activity
information sheets. As a result, we consider that a management decision has been
reached for this recommendation.




                                                                                         12
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. The fieldwork was conducted at
USAID/Southern Africa in Gaborone, Botswana from June 13, 2006 to August 24, 2006.
The scope was limited to fiscal year 2005 activities conducted by implementing partners.

For the three audit objectives, we examined contract, grant and cooperative agreements
with selected implementing partners in Botswana, Lesotho, and Swaziland. From these
agreements, we selected a sample of all five of the indicators that were reported on by
implementing partners, which were included in the Mission’s annual report published in
fiscal year 2006.

We examined the significant internal control associated with the implementation of
performance management plans and the reporting of results. This examination included
monitoring and evaluating controls such as agreement requirements for reporting
results, implementing partner reports, activity site visits, and periodic data quality
assessments.      We examined specific procedures for collecting, recording, and
summarizing results from the service provider level through the entire system to the
annual report. Our examination included determining whether policy and procedures
were followed in determining the quality of reported data and whether the reported
data/results were accurate. The types of evidence included reviewing strategic plans,
annual reports, performance management plans, data quality assessments, trip reports,
interviews with service providers, interviews with implementing partners, interview with
USAID officials, primary and secondary source documents, implementing partner
reports, and various record-keeping systems.

In conducting our fieldwork, we did not rely on, and therefore did not test, the validity of
any computer generated data. Additionally, we found no significant prior audit findings
affecting the areas examined during this audit.

Methodology
To accomplish our audit objectives, we interviewed cognizant officials from USAID,
service providers, as well as implementing partners. We reviewed applicable USAID
and Mission policies and procedures, examined original primary and secondary source
documents, and assessed significant management controls and risk exposure relating to
the monitoring and evaluating of activities, as well as reporting results. Management
controls included the execution of performance management plans, in addition to the
periodic assessment of the quality of reported data. Additional controls included those
for collecting, recording, and summarizing results data from implementing partners and
service providers, and reporting those results through the annual report process.

Due to the extensive variety of types of indicators and associated data, as well as the
complexity of performance management plans, we did not set a materiality threshold for
answering the audit objectives.



                                                                                         13
                                                                           APPENDIX I



Of the four strategic objectives in the Mission’s results framework, we judgmentally
selected three for examination and testing. From the indicator tables in the fiscal year
2006 annual report (for activities during fiscal year 2005) for the strategic objective
teams with activities in the subject limited-presence countries, we examined all of the
five published indicators. Although the results are significant enough to establish the
fact that there are systemic problems, the results of our samples cannot be projected to
the entire universe of activity indicators.




                                                                                     14
                                                                              APPENDIX II



MANAGEMENT COMMENTS


                                                                        November 17, 2006


MANAGEMENT DECISIONS MEMORANDUM

TO:          RIG/Pretoria, Regional Inspector General, Nathan S. Lokos

FROM:        USAID/Southern Africa, Regional Mission Director, Erna Kerst /s/

SUBJECT: Audit of USAID Activities in Limited-Presence Countries Managed by
         USAID/Southern Africa (Report No. 4-690-07-00X-P dated October 23,
         2006)

This memorandum constitutes USAID/Southern Africa’s management decisions with
respect to the subject audit report.

Recommendation No. 1: We recommend that USAID/Southern Africa establish
procedures to complete data quality assessments for all indicators published in
annual reports in accordance with applicable policies and procedures.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with the finding
that data quality assessments were not always completed for performance indicators
reported in USAID/Southern Africa’s annual report for fiscal year 2006.

USAID/Southern Africa will be developing its FY07 Operational Plan for submission on
January 31, 2007. In accordance with the FY2007 Operational Plan Guidance issued by
the Office of the Director of U.S. Foreign Assistance, USAID/Southern Africa will
identify activities at the Program Element, Program Sub-Element, and Implementing
Mechanism levels. The Mission will also select corresponding indicators from a list of
Standard Indicators. These indicators will form the basis for developing a new Mission
Performance Management Plan that will replace existing Strategic Objective Mission
Performance Management Plans.

Planned Actions: USAID/Southern Africa will establish procedures to complete data
quality assessments for all Standard Indicators that are selected in the Operational Plan.
These procedures will be included in a broader set of procedures for completing and
approving a new Mission Performance Management Plan based on Program Elements,


                                                                                         15
                                                                          APPENDIX II


Program Sub-Elements, Implementing Mechanisms, and corresponding Standard
Indicators identified in the FY07 Operating Plan (see Recommendation #2 below). The
procedures will be documented in a Mission Order, which will be issued no later than
March 31, 2007.

Recommendation No. 2: We recommend that USAID/Southern Africa establish
procedures to complete and approve performance management plans for all
strategic objective teams.

USAID/Southern Africa Comments: USAID/Southern Africa agrees that the
performance management plan for Strategic Objective No. 15 was never completed and
approved, contrary to USAID guidance.

As stated above, USAID/Southern Africa plans to develop a new Mission Performance
Management Plan based on Standard Indicators selected to correspond to Program
Elements, Program Sub-Elements, and Implementing Mechanisms identified in the FY07
Operating Plan. This Mission Performance Management Plan will replace any existing
Performance Management Plans for Strategic Objectives.

Planned Actions: USAID/Southern Africa will establish procedures to complete and
approve a Mission Performance Management Plan based on Program Elements, Program
Sub-Elements, Implementing Mechanisms, and corresponding Standard Indicators
identified in the FY07 Operating Plan. These procedures will be documented in a
Mission Order, which will be issued no later than March 31, 2007.

Recommendation No. 3: We recommend that USAID/Southern Africa revise the
definition for the performance indicator for “Annual growth in value of exports
from Southern African countries to the U.S.” in order to report results attributable
to USAID activities.

USAID/Southern Africa Comments: USAID/Southern Africa agrees that this indicator
was reporting results that were not attributable to USAID activities.

Planned Actions: USAID/Southern Africa plans to drop this indicator and select
appropriate indicators from the menu of Standard Indicators for Program Area 2: Trade
and Investment, under the Economic Growth Functional Objective in the new Foreign
Assistance Standardized Program Structure. The target date for selecting these new
indicators is January 31, 2007, which is the due date for the submission of the FY07
Operational Plan.

Recommendation No. 4: We recommend that USAID/Southern Africa establish
procedures to review annual report data and report results for performance
indicators that are supported and accurate in accordance with applicable policies
and procedures.




                                                                                        16
                                                                               APPENDIX II


USAID/Southern Africa Comments: USAID/Southern Africa agrees with the finding
that performance results were not always reported accurately, contrary to applicable
guidance, and that this was partly due to the “lack of adequate editing controls and
record-keeping systems to ensure that data quality was maintained and accurate results
reported”.

The Office of the Director of U.S. Foreign Assistance is in the process of introducing
new integrated strategic planning, budget planning, program planning, and results
monitoring tools. This will affect the “annual report” and the process required to review
data and report results for performance indicators.

Planned Actions: USAID/Southern Africa will establish procedures to review annual
report data and report results for performance indicators that are supported and accurate
in accordance with applicable policies and procedures, including any new guidance
issued by the Office of the Director of U.S. Foreign Assistance. These procedures will be
documented in a Mission Order, which will be issued no later than April 30, 2007.

Recommendation No. 5: We recommend that USAID/Southern Africa establish
procedures to complete, approve and input into the appropriate database all activity
information sheets for limited-presence countries in accordance with applicable
policies and procedures.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with the finding
that Activity Information Sheets for the activities in the three limited-presence countries
were not put into the Activities Not Managed In-Country (ANMIC) database. We also
agree that there has been inadequate follow-up by Mission officials to obtain the
necessary clearances for input.

The Operational Plan, due on January 31, 2007, will identify activities for
implementation using FY07 funds. Per the FY2007 Operational Plan Guidance (October
13, 2006), where activities and funding are sufficiently discrete to attribute to a country,
Regional Platforms are responsible for identifying countries benefiting from their New
Obligation Authority budget. However, if the assistance truly transcends a single
country’s borders, the benefiting country can be left as “Regional” in the Operational
Plan. Although we have not yet received FY07 Budget Planning Levels, we anticipate
that we will focus our limited resources on truly regional activities.

Preliminary guidance from USAID/Washington during the Operational Plan Training in
Pretoria in February 2006 suggests that the new Foreign Assistance Coordination and
Tracking System (FACTS) will include information that now goes into the ANMIC
database. As a result, the ANMIC database may be phased out.

Planned Actions: If USAID does not phase out activity information sheets in FY07,
USAID/Southern Africa will issue a Mission Order outlining the procedures to complete
activity information sheets, obtain the necessary approvals, and enter data into the




                                                                                          17
                                                                               APPENDIX II


ANMIC database in accordance with applicable policies and procedures, including ADS
203.3.9. The target date for issuing the Mission Order is January 31, 2007.

Recommendation No. 6: We recommend that USAID/Southern Africa solicit
approval for and input overdue activity information sheets.

USAID/Southern Africa Comments: USAID/Southern Africa agrees with the finding
that Activity Information Sheets for the activities in the three limited-presence countries
were not put into the required ANMIC database. We also agree that there has been
inadequate follow-up by Mission officials to obtain the necessary clearances for input.

Planned Actions: USAID/Southern Africa will take the following actions:

Action                                                       Target Date
Send copies of FY06 Activity Information Sheets to           --Copies sent by 11/17/06
affected Missions and Embassies for comment, to ensure       --Deadline for
that they have no objections                                 comments/objections: 12/8/06
Follow up with GC and AFR on at least a bi-weekly            Clearances to be obtained by
basis to obtain necessary clearances on FY06 Activity        1/15/07
Information Sheets, which were sent to USAID/W in
August 2006
Send electronic copies of cleared FY06 Activity              1/31/07
Information Sheets to AFR/DP and PPC
The Regional Program Planning Office in                      1/31/07
USAID/Southern Africa will submit cleared FY06
Activity Information Sheets to
npctemplate@dec.cdie.org




                                                                                          18
                                                                        APPENDIX III



OUPUT ACHIEVEMENTS
Strategic objective (SO): 690-017
SO Title: Improved Management of Selected River Basins


      Indicator                              FY-2005       FY-2005     Achieved
                                             Target        Actual      Targets
      Institutional development of           5            5            Yes
      OKACOM5 Secretariat (Institutional
      strengthening index; # of annual
      targets met)
      Number of International River Basin    1            1            Yes
      Organizations Strengthened (cum.)



Strategic objective (SO): 690-014
SO Title: A More Competitive Southern African Economy


      Indicator                              FY-2005       FY-2005     Achieved
                                             Target        Actual      Targets
      Annual Growth in value of exports      18%          14.8%        No
      from Southern Africa to U.S.
      assisted region
      Key transaction costs reduced          15 hours     None         No
      measured as hours at border to clear
      Value of exports of targeted           $2,201,470   $2,730,986   Exceeded
      commodities from Southern Africa to    (in          (in
      world markets                          thousands)   thousands)




5
    Okavango River Basin Water Commission


                                                                                  19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
